IN THE SUPREME COURT OF THE UNITED STATES

MAXIMO FLORES-LEZAMA,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Certificate of Service

I, Kristi A. Hughes, appointed to represent the petitioner under the Criminal
Justice Act, certify that on July 10, 2020, one copy of the Petition for a Writ of
Certiorari, the Appendix, and a Motion to Proceed In Forma Pauperis in the above-
captioned case were served by email to respondent's counsel, addressed as follows:

Noel Francisco, Solicitor General
SupremeCtBriefs@USDOJ.gov

Respectfully sukmitted,

    

July 10, 2020

L <ribti A. Hughes
P.O. Box 141 \~
Cardiff, California 92007
Telephone: (858) 215-3520
Counsel for Petitioner

12
